Credit Card Disclosure Statement and Agreement
for APGFCU® Credit and Share Secured Credit
Cards Issued After June 15, 2017
In this Agreement the words “you” and “your” mean each and all of those
who apply for the card or use the card. “Card” means the VISA® Credit Card
and any duplicates and renewals we issue. “Account” means your VISA Credit
Card Line of Credit account with us. “We,” “us” and “ours” means Aberdeen
Proving Ground Federal Credit Union (APGFCU). By signing, using or accepting
the APGFCU VISA card, you acknowledge receipt of this Agreement and agree
to terms herein.
1. Responsibility: If we issue a card, you agree to repay all amounts
advanced to you, any fees or charges and the FINANCE CHARGE arising from
the use of the card and the card account. For example, you are responsible
for charges made by yourself, your spouse and minor children and anyone else
to whom you give the card. You may request additional cards for individuals
you designate as authorized users. You are responsible to repay all amounts
advanced by authorized users, any fees or charges and the FINANCE CHARGE
arising from their use of the card. If you notify us that someone you have given
your card is not authorized to use it any more, we will cancel the card. You
will remain liable for the charges they make until the time we cancel the card.
You cannot disclaim responsibility by notifying us, but we will close the account
for new transactions if you so request. Your obligation to pay the account
balance continues even though an agreement, divorce decree or other court
judgements to which we are not a party may direct you or one of the other
persons responsible to pay the account.
2. Lost Card Notification: If you believe the card has been lost or stolen,
you should immediately call the Credit Union during business hours at
410-272-4000 or toll-free at 800-225-2555.
3. Liability for Unauthorized Use: You may be liable for the unauthorized
use of your card. You agree to notify us immediately in the event of the
loss, theft or unauthorized use of your card by telephone at 410-272-4000 or
toll-free at 1-800-225-2555 or by writing APG Federal Credit Union, P.O. Box
1176, Aberdeen, MD 21001. Until you do, you may have to pay up to $50 for
the purchases and/or cash advances made by anyone who used your card
without your permission. You may also be liable for the unauthorized use of
convenience checks.
4a. Credit Line: If we approve your application, we will establish a selfreplenishing Line of Credit for you and notify you of its amount when we issue
the card. You agree not to let the account balance exceed this approved Credit
Line. Each payment you make on the account will restore your Credit Line by
the amount of the payment which is applied to principal. You may request an
increase in your Credit Line by written application, or telephone call to us at
800-225-2555, which must be approved by us. By giving you written notice,
we may reduce your Credit Line from time to time, or, with good cause, revoke
your card and terminate this Agreement. Upon revocation of your card any
outstanding balance and FINANCE CHARGE shall immediately become due and
payable under the terms of this Agreement. Good cause includes your failure to
comply with this Agreement, our adverse reevaluation of your creditworthiness
or your use of this card in furtherance of any purpose deemed to be illegal
under state or federal law. You may also terminate this Agreement at any
time, but termination by either of us does not affect your obligation to pay
the account balance and FINANCE CHARGE arising from authorized use of the
card. The cards remain our property and you must recover and surrender to us
all cards upon our request and upon termination of the Agreement.
4b. Share Secured Credit Line: If we approve your application, we
will establish a self-replenishing Line of Credit equal in amount to pledged
shares for you and notify you of its amount when we issue the card. You
agree not to let the account balance exceed this approved Credit Line.
Each payment you make on the account will restore your Credit Line by the
amount of the payment which is applied to principal. You may request
an increase in your Credit Line by written application or telephone call
to us, which must be approved by us at 1-800-225-2555, and by pledging
the additional shares equivalent to the increased Credit Line. By giving
you written notice, we may reduce your Credit Line from time to time,
or, with good cause, revoke your card and terminate this Agreement. Upon

revocation of your card any outstanding balance and FINANCE CHARGE shall
immediately become due and payable under the terms of this Agreement.
Good cause includes your failure to comply with this Agreement, our adverse
reevaluation of your creditworthiness or your use of this card in furtherance
of any purpose deemed to be illegal under state or federal law. You may also
terminate this Agreement at any time, but termination by either of us does not
affect your obligation to pay the account balance and FINANCE CHARGE arising
from authorized use of the card. The cards remain our property and you must
recover and surrender to us all cards upon termination of the Agreement.
4c. Balance Transfers: Balance transfers are a feature of your card, which
you may access anytime or during promotions we may offer from time to time.
You may transfer balances from other creditors up to your available credit limit.
Balances you transfer from other creditors will be treated as cash advances for
the purpose of this agreement and will be subject to your standard cash advance
APR unless a promotional APR applies. Any balance transfer promotional offers
will describe the terms and conditions of the offer. Balance transfers may not be
used to pay any amount owed to us on this credit card agreement or any other
APGFCU credit card or loans you may have with us. If you transfer your balances
you may lose your grace period on purchases.
5. Checking Overdraft Protection: This VISA Credit Line also allows you to
overdraft your checking account for any lawful purpose except for payment to this
VISA Credit Card account and shall be subject to service charges in accordance
with the rate schedules disclosed in the VISA Credit Card Application, VISA Credit
Approval Letter, and/or VISA Credit Card Disclosure Statement and Agreement.
We will credit to your checking account, in multiples of $50, an amount (the
advance) sufficient to permit us to honor such check. Such credit advances are
considered by us as cash advances and are subject to the terms and conditions
concerning cash advances in this Agreement.
6. Credit Information: You authorize us to investigate your credit standing
including your ability to pay, obtain and verify credit reports and other
information about you when opening, renewing or reviewing your account,
and you authorize us to disclose information regarding your account to credit
bureaus and other creditors who inquire of us about your credit standing,
subject to applicable law.
You agree that we will give information about the Account to credit reporting
agencies. We will tell a credit reporting agency if you fail to comply with any term
of this Agreement. This may have a negative impact on your credit report.
7. Monthly Payment: We will mail you a statement every month showing
your Previous Balances of purchases, cash advances and balance transfers;
the current transactions on your account; the remaining credit available under
the Credit Line; the New Balances of purchases, cash advances and balance
transfers; the New Balance Total; the FINANCE CHARGE due to date; any other
billed fees; and the Minimum Payment required. Each month, you must pay at
least the Minimum Payment within 25 days of your statement closing date. You
may authorize us to charge the Minimum Payment automatically to your share
account with us. You may, of course, pay more frequently, pay more than the
Minimum Payment, or pay the Total New Balance in full, and you will reduce the
FINANCE CHARGE by doing so.
The Minimum Payment on your account will be either (a) 2.0% of your Total
New Balance, or $25, whichever is greater, or (b) your Total New Balance, if
it is less than $25 plus (c) any portion of the Minimum Payment(s) shown on
prior statement(s) which remains unpaid. In addition, at any time your Total
New Balance exceeds your Credit Line, you must immediately pay the excess
without our demand.
Subject to applicable law, your payments may be applied to what you owe the
Credit Union in any manner the Credit Union chooses. However, in every case,
in the event you make a payment in excess of the required minimum periodic
payment, the Credit Union will allocate the excess amount first to the balance
with the highest annual percentage rate and any remaining portion to the other
balances in descending order based on applicable annual percentage rate.

Page 1 of 4

8. Irregular Payments: We can accept late payments, partial payments,
checks and money orders marked “paid in full” or language having the same
effect without losing any of our rights under this agreement.
9. Finance Charge: You can avoid the FINANCE CHARGE on purchases by
paying the full amount of the New Balance Total each month within 25 days of
your statement closing date. Otherwise, the New Balance, including purchases,
cash advances, and subsequent purchases from the date they are posted to
your account, will be subject to the FINANCE CHARGE. Cash advances, balance
transfers, convenience checks are always subject to the FINANCE CHARGE from
the date they are posted to your account.
The FINANCE CHARGE (interest) is calculated on the average daily principal
balances of purchases and cash advances in the account at the daily periodic
rate and corresponding Annual Percentage Rate disclosed in the VISA Credit
Card Approval Letter.
The principal balances of purchases, cash advances and balance transfers are
determined each day during the statement period, beginning with the principal
portion of your Previous Balances, reduced by payments you make and credits
we apply, and increased by purchases, cash advances and balance transfers
you make and debit adjustments we make during the statement period. The
daily principal balances are totaled and divided by the number of days in the
statement period, to produce separate average daily principal balances for
purchases, cash advances and balance transfers to which the periodic rate is
then applied.
10a. Non-Variable Rate APR: Your Annual Percentage rate is provided in
your VISA Credit Card Approval Letter (the “stated rate”). This rate is subject
to change. We may modify this rate only after providing you with written notice
at least forty five (45) days in advance. Any change in these terms, including
changes in the Annual Percentage Rate, will apply to your future transactions.
Your Annual Percentage Rate may also change in the event that you request
and are approved for an increase or decrease in your Credit Line or request and
are approved to change your credit product.
10b. Variable APRs Based on Prime: For our variable rate cards, your
Annual Percentage Rate is based on the U.S. Prime Rate (“Prime Rate”). Your
Annual Percentage Rate will equal the Prime Rate plus a margin. If the Prime
Rate increases, it will cause the Annual Percentage Rate to increase. If the
Prime Rate decreases, it will cause the Annual Percentage Rate to decrease.
Your FINANCE CHARGE for every $1.00 in your daily balance may increase if
the Prime Rate rises and will decrease if the Prime Rate falls. For example, a
change in the Prime Rate of one percentage point will result in a one percentage
point change in the same direction in your Annual Percentage Rate with a
corresponding change in your daily periodic rate. For each billing period, we
use the Prime Rate published in The Wall Street Journal on the first business
day of each month. If the Prime Rate causes an Annual Percentage Rate to
change, we put the new Annual Percentage Rate into effect as of the first day
of the billing period following the month in which the Prime Rate changed. We
apply the new Annual Percentage Rate to any existing balance, subject to any
promotional rates that may apply.
For Platinum Preferred Student/Starter, Platinum Preferred and Platinum
Preferred Rewards VISA cards, the margin is determined based on an evaluation
of each member’s credit history. The margins will range from 5.74% to 14.24%
based on product type. For the Classroom Supply VISA, the margin is 0.00%.
For the Share Secured and the Money Market Share Secured VISA cards, the
margin is 1.00%.
If your VISA credit line is secured by a Regular Share account, the maximum
rate will not exceed 5% above the current APGFCU dividend rate on Regular
Share Accounts. If your VISA credit line is secured by a Money Market Share
Account, the maximum rate will not exceed 5% above the current APGFCU tier
for the lowest Money Market tier rate. For all other variable rate cards, The
Annual Percentage Rate will not increase to more than 18% (or such other rates
as may be permitted under the Federal Credit Union Act).
Your Annual Percentage Rate may also change in the event that you request
and are approved for an increase or decrease in your Credit Line or request and
are approved to change your credit product.

11. Military Lending Act: Federal law provides important protections to
members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to the credit transaction
or account: the costs associated with credit insurance premiums or debt
protection fees; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees
for specified credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account). To receive this
notice verbally, please call 800-225-2555 24 hours a day, 7 days a week.
Certain contractual provisions, as more fully set forth in 32 C.F.R. Section 232.8,
are not permitted in loan agreements with borrowers covered by the Military
Lending Act (MLA). To the extent that any of those provisions are contained in
these disclosures, they shall be inapplicable to covered borrowers under the
MLA.
12. Late Charge: If you fail to pay the minimum on your account within fifteen
(15) days of the payment due date, a late payment charge will be assessed and
added to your account.
13. Fees: The VISA Card account shall be subject to service charges
in accordance with the rate schedules disclosed in the VISA Credit Card
Application, VISA Credit Approval Letter, and/or VISA Credit Card Disclosure
Statement and Agreement. If you request photocopies of sales slips,
duplicate copies of monthly billing statements or a replacement card, you
agree to pay our reasonable costs for such services. The present charges
for these services are stated specifically in the current Service Price List.
You can pick one up in any branch or call us and we’ll mail a copy to you.
14a. Default and Share Secured Default: You will be in default if you fail
to make the minimum payment within 25 days after your monthly statement
closing date. You will also be in default if: (a) you breach any other conditions
of the Agreement; (b) bankruptcy or insolvency proceedings are started by you
or against you; (c) if we determine your credit-worthiness (which includes your
ability to repay us) has become unsatisfactory due to change in employment,
increase in your other obligations, or because of any other reason; (d) in the
event of your death; (e) your use of the card in furtherance of any purpose
deemed to be illegal under state or federal law; or (f) we discover at any time
that you provided false or fraudulent information in your credit application.
In the event of any default or in the event this Agreement is terminated by you
or by us for any reason, the entire balance on the Account becomes due and
payable forthwith. You also agree that, in case of default, you will pay all usual
and customary costs of collection permitted by law, including court costs and
reasonable attorney fees. You agree that the jurisdiction in any dispute or for
any collection purposes will be in the State of Maryland.
14b. Penalty APR: The Penalty APR may be applied to your account if you:
• Are over 60 days past due or
• Make a payment that is returned and causes your account to be over
60 days past due.
The penalty APR is 18.00% (or such other rates as may be permitted under the
Federal Credit Union Act). If the penalty APR is applied to your account, it will
apply to both existing and new transactions. It will no longer apply to existing
transactions if you make the next six consecutive minimum payments. If you
do not make these six consecutive minimum payments, the Penalty APR may
continue to apply to both new and existing balances indefinitely.
15. Using the Card: You must sign your card to use it. To make a purchase
or cash advance, there are two alternative procedures to follow. One is for you
to present the card to a participating VISA plan merchant, to us or to another
financial institution. You may be required to sign the sales or cash advance draft.
The other is to complete the transaction by using your Personal Identification
Number (PIN) in conjunction with the card in an Automated Teller Machine
(ATM) or other type of electronic terminal that provides access to the VISA
system. ATM transactions are subject to cash advance fees.
The monthly statement will identify the merchant, electronic terminal or
financial institution at which transactions were made, but sales, cash advance,
credit or other slips cannot be returned with the statement. You should retain

Page 2 of 4

the copy of such slips furnished at the time of the transaction in order to verify
the monthly statement. The Credit Union may make a reasonable charge for
photocopies of slips you may request.
We may issue VISA Convenience Checks to you which may be used to obtain
cash advances. Each Convenience Check will contain your Credit Union member
number and may be used only by the person whose name is printed on it. Each
must be completed and signed in the same way as a regular personal check.
You may not use a VISA Convenience Check to pay any amount owed to us on
this credit card agreement or any other APGFCU credit card or loans you may
have with us.
If you give your account number to make a purchase or obtain a cash advance
without presenting the card (such as for online, mail order or telephone
purchase), the legal effect will still be the same as if the card itself was used
by you.
We are not responsible if anyone refuses to honor your credit card or
Convenience Check.
16. Prohibited Use of the Card: You may not use your card to buy lottery
tickets, place bets or gamble if these transactions are made online. You also
may not use your card for any illegal transactions.
17. Stop Payment: If before a Balance Transfer or Convenience Check drawn
on your Account has been honored, you notify us not to pay it, we will stop
payment on the check. You must send us a written and signed stop payment
order which states the number, payee, amount, and date of the check on which
payment is to be stopped. We may disregard any such order six months after
our receipt unless you renew your request.
18. Returns and Adjustments: Merchants and others who honor the card
may give credit for returns or adjustments, and they will do so by sending us
a credit which will be posted to your account. If your credits and payments
exceed what you owe us, we will hold and apply this credit balance against
future purchases and cash advances, or refund it and transfer the credit
balance to your share account.
19. Foreign Transactions: Purchases and cash advances made in foreign
countries and foreign currencies will be billed to you in U.S. dollars. The
conversion rate to dollars and the fees for all international transactions will be in
accordance with the operating regulations of VISA USA, Inc. The exchange rate
between the transaction currency and the billing currency used for processing
international transactions is a rate selected by VISA from the range of rates
available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives, or the governmentmandated rate in effect for the applicable processing date. In addition, a fee of
1% of the transaction amount may be charged on all international transactions
regardless of whether or not currency conversion is involved.
20. Plan Merchant Disputes: We are not responsible for the refusal of any
plan merchant or financial institution to honor your card. We are subject to
claims and defenses (other than tort claims) arising out of goods or services
you purchase with the card only if you have made a good faith attempt, but
have been unable to obtain satisfaction from the plan merchant, and: (a) your
purchase was made in response to an advertisement we sent or participated in
sending you; or (b) your purchase cost more than $50 and was made from a plan
merchant in your state or within 100 miles of your home. Any other disputes you
must resolve directly with the plan merchant.

date under the terms of the Agreement governing your account at the time
our notice was given. If you use your card after the effective date of this
Agreement or any Amendment, you will be considered to have agreed to the
new terms even if you have sent us such written notice. To the extent the law
permits, and we indicate in our notice, amendments will apply to your existing
account balance as well as future transactions.
22. Notices: We mail you statements and notices through the U.S. Mail,
postage prepaid, and address them to you at the latest billing address on our
records or, if you've agreed, by email to the address you gave us. Any notice
that we send you through the U.S. Mail is deemed to be given when deposited
in the U.S. Mail. We consider an electronic notice sent as soon as we email it,
unless we receive notification that the email was undeliverable. You must notify
us immediately if you change the address to which we send billing statements.
If you have more than one account you must notify us and we will change the
address on all accounts. We may update your billing address if we receive
information that it has changed or is incorrect.
23. No Waiver: The Credit Union can delay enforcing any of its rights any
number of times without waiving them.
24. Reward Points: For those cards that earn reward points, your card may
be associated with a bonus points or similar rewards program. Your participation
in such a rewards program is subject to the particular rewards program’s terms
and conditions (the “Program Rules”). Your use of the card associated with the
rewards program is your consent to be bound by the Program Rules. The Program
Rules may, from time to time, be modified or amended, including but not limited
to discontinuing particular rewards or discontinuing the rewards program itself.
The latest edition of Program Rules will typically be provided with the associated
Card or otherwise made available to you, for example, by visiting a particular
internet address. We will provide a copy of such Program Rules upon request.
If you close your account and/or membership, you will forfeit all rewards points
earned but not yet credited. WE MAKE NO WARRANTIES, EXPRESS OR IMPLIED,
REGARDING THE CONDITION, QUALITY, MERCHANTABILITY OR FITNESS FOR
A PARTICULAR PURPOSE OF ANY GOODS OR SERVICES PURCHASED WITH
BONUS POINTS, AND WE WILL HAVE NO LIABILITY FOR ANY DEFECTS IN SUCH
GOODS OR SERVICES OR FOR ANY DAMAGES RESULTING FROM THEIR USE.
25. How We May Contact You: You expressly agree in order for APGFCU to
provide information about your account and obtain any payment for amounts
you may owe APGFCU, we or our authorized parties may contact you and send
text messages to you. We may use pre-recorded/artificial voice messages
or an automated dialing device to contact you at any telephone number
associated with your APGFCU account, including mobile numbers, as permitted
by applicable law. You also expressly agree that we may email you at any email
address you have provided us.
26. Governing Law: This agreement is governed by the Annotated Code
of Maryland, Financial Institutions Article, Title 6 and the Annotated Code of
Maryland, Commercial Law Article, Title 12, Subtitle 9 and applicable federal
law or regulation.

21. Effect of Agreement: This Agreement is the contract which applies to
all transactions of your account even though the sales, cash advance, balance
transfer or convenience checks you sign may contain different terms. We may
amend this Agreement from time to time by sending you advance written
notice required by law. The Amendment will become effective on the effective
date stated in the notice. Use of your card after receiving notice of a change
will further evidence your agreement to the change. If you give us written
notice that you do not agree to the change, we will terminate your account
and you will be permitted to pay the outstanding balance as of the effective

Page 3 of 4

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
APG Federal Credit Union, P.O. Box 1176, Aberdeen, MD 21001
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but
if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

• You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
• You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
APG Federal Credit Union, P.O. Box 1176, Aberdeen, MD 21001
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.
In case of errors or questions about your electronic funds transfer
(Federal Electronic Funds Transfer Act) call us at 410-272-4000 or toll-free
at 800-225- 2555. TTY: 1-800-811-4888. Or write us at APG Federal Credit
Union, P.O. Box 1176, Aberdeen, Maryland 21001-6176, as soon as you
can, if you think your statement or receipt is wrong or if you need more
information about a transfer listed on the statement or receipt. We must hear
from you no later than 60 days after we sent the FIRST statement on which
the problem or error appeared.
1. Tell us your name and account number (if any).
2. Describe the error or the transfer you are unsure about, and
explain as clearly as you can why you believe it is an error or
why you need more information.
3. Tell us the dollar amount of the suspected error.
If you tell us orally, we may require that you send us your complaint or
question in writing within ten (10) business days. We will determine whether
an error occurred within ten (10) business days (20 business days if the
transfer involved a new account) after we hear from you and will correct
any error promptly. If we need more time, however, we may take up to 45
days (90 days if the transfer involved a new account, or a foreign initiated
transfer) to investigate your complaint or question. If we decide to do this,
we will credit your account within 5 business days (20 days if the transfer
involved a new account) for the amount you think is in error, so that you
will have the use of the money during the time it takes us to complete our
investigation. If we ask you to put your complaint or question in writing
and we do not receive it within 10 business days, we may not credit your
account. An account is considered a new account for 30 days after the first
deposit is made, if you are a new member.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

We will tell you the results within three business days after completing our
investigation. If we decide that there was no error, we will send you a written
explanation. You may ask for copies of the documents that we used in our
investigation.

If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting that
you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.

Automatic Payment Transfers
If you have authorized us to pay your credit card bill automatically from your
Share or Checking account, you can stop the payment on any amount you
think is wrong. To stop the payment your letter must reach us three business
days before the automatic payment is scheduled to occur.

If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase. To use this right, all of the following must be true:
• The purchase must have been made in your home state
or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company
that sold you the goods or services.)

VD-VIS-DIS-031721

Page 4 of 4

Federally insured by NCUA

Security Interest Disclosure
I/we acknowledge and pledge, as a condition of my/our use of the APGFCU credit card, that I/we
have voluntarily granted APGFCU a security interest in all my/our individual and joint shares, share
draft and share certificates now or in the future held at AGPFCU. If my/our credit card loan becomes
delinquent, this security interest may be used without further notice to pay all or any part of such
delinquency. This security interest does not apply to shares in an IRA, Keogh, or similar tax deferred
account.
In addition, I/we acknowledge that the Federal Credit Union Act (12 U.S.C. 1757 (11)) secures all
amounts owed APGFCU for use of this credit card by me/us or any authorized user and may be
applied upon default against any of my/ours shares, share draft or share certificate account balances
without further notice to pay all or any part of such delinquency. This security interest does not apply
to shares in an IRA, Keogh or similar tax deferred account.

VD-VIS-DIS-031721
Page 1 of 1

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

0% introductory APR for 15 months for purchases made within the first 90 calendar days from account opening.
After that, and for purchases completed after the first 90 calendar days, your standard APR will apply based on your
creditworthiness at the time you opened your account. This APR will vary with the market based on the Prime Rate.

Visa Platinum Preferred
Visa Platinum Preferred Rewards
Visa Platinum Preferred Student/Starter

Visa Platinum Clarity

8.99% – 16.99%
10.49% – 17.49%
13.99% – 15.99%
15.99% non-variable APR

The APRs below will vary with the market based on the Prime Rate.
Classroom Supply Visa

a

Share Secured Visa Platinum Rewards

b

Money Market Share Secured Visa Platinum Rewardsc
Annual Percentage Rate (APR) for Balance Transfers

3.25%
4.25%
4.25%

0% introductory APR for 15 months from the date of account opening for balance transfers submitted within the first
90 calendar days from account opening for Platinum Preferred, Platinum Preferred Rewards and Platinum Preferred
Student/Starter Visa cards. Balance transfer approval conditions apply. After that, and for balance transfers completed
after the first 90 calendar days, your APR will be 8.99% to 17.49% based on your creditworthiness at the time you
opened your account. This APR will vary with the market based on the Prime Rate.
For each Visa card listed below, the APRs will vary with the market based on the Prime Rate.
• Classroom Supply Visaa 3.25%
• Shared Secured Visa Platinum Rewardsb 4.25%
• Money Market Shared Secured Visa Platinum Rewardsc 4.25%

Visa Platinum Clarity

15.99% non-variable APR

Annual Percentage Rate (APR) for Cash
Advances and Convenience Checks

For Platinum Preferred, Platinum Preferred Rewards and Platinum Preferred Student/Starter Visa cards, your APR will
be 8.99% to 17.49% APR based on product type and your creditworthiness at the time you opened your account.
This APR will vary with the market based on the Prime Rate.
For each Visa card listed below, the APRs will vary with the market based on the Prime Rate.
• Classroom Supply Visaa 3.25%
• Shared Secured Visa Platinum Rewardsb 4.25%
• Money Market Shared Secured Visa Platinum Rewardsc 4.25%

Visa Platinum Clarity

15.99% non-variable APR

Penalty APR and When It Applies

18.00%

This APR may apply to your account if you:
• Are over 60 days past due; or
• Make a payment that is returned and causes your account to be over 60 days past due.
How long will the Penalty APR apply? If your APRs are increased for either of these reasons, the Penalty APR may
apply indefinitely.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on purchases if
you pay the entire balance by the due date each month. We will begin charging interest on balance transfers, cash
advances and overdraft advances, if enrolled, on the transaction date.

For Credit Card Tips from the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Cash Advance
• Foreign Transaction
• Balance Transfer

Penalty Fees
• Late Payment
• Returned Payment

None
• $2
• up to 1% of transaction amount in U.S. dollars
• 3% of the amount of each balance transfer transaction will be assessed to your account upon posting for all balance
transfer requests submitted within the first 90 calendar days of account opening at the 0% introductory APR.
• There is no balance transfer fee for all balance transfer requests submitted and posted to your account after 90
calendar days of account opening, and you will be charged your standard variable rate APR.
• $25
• $20

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Variable Rate Information: Variable APRs are based on the 3.25% Prime Rate as of 04/01/2021. Your APR may vary. Rates are determined and adjusted monthly, according to
your statement cycle period, by adding a Margin to the Prime Rate published in the Wall Street Journal on the first business day of every month. The Margin will range from 5.74% to 14.24%
based on an evaluation of each member’s credit history and product type. The Margin for the Classroom Supply, Share Secured and Money Market Share Secured Visa cards is below:
a

We add 0.00% to the Prime Rate for the Classroom Supply Visa

b

We add 1.00% to the Prime Rate for the Share Secured Visa, not to exceed 5.00% above the current rate on the Regular Share Accounts

c

We add 1.00% to the Prime Rate for the Money Market Share Secured Visa, not to exceed 5.00% above the lowest Money Market tier rate

Balance transfers will be applied to your account and sent to your designated payee(s) 10 days after we open your new account. If you want to cancel or modify your balance transfer within
the first 10 days of account opening, please call 800-225-2555. Please continue to make regular payments to your other account(s) until you know the balance has been paid.
This disclosure was printed and accurate as of 04/01/2021, and is subject to change after that date. To find out what may have changed, or if you have any questions regarding this
disclosure, call toll free 800-225-2555, or 800-811-4888 TTY.
Page 1 of 2
VD-VIS-DIS-031721

Terms and Conditions of Balance Transfer Offer for
New APGFCU Visa® Accounts
• 0% introductory APR for 15 months from the date
of account opening for balance transfers submitted
within the first 90 calendar days from account
opening for Cash Back, Platinum Preferred, Platinum
Preferred Rewards and Platinum Preferred Student/
Starter Visa cards.

• APGFCU is not responsible for any payments being
late, lost in the mail or for any finance or other
charges that may occur due to a delay in processing
a balance transfer request.

• After 15 months, your introductory rate will end and
your standard cash advance rate will apply.

• Balance transfers are always subject to Finance
Charges from the date they are posted to your
account to the date on which they are paid in full.

• 3% of the amount of each balance transfer
transaction will be assessed to your account upon
posting for all balance transfer requests submitted
within the first 90 calendar days of account opening
at the 0% introductory APR.
• There is no balance transfer fee for all balance
transfer requests submitted and posted to your
account after 90 calendar days of account opening,
and you will be charged your standard variable rate
APR.
• You authorize APGFCU to pay off the balances or
portions of the balances due on the credit cards/
charges/loans listed within this online form or
verbally by means of a Balance Transfer charged to
your APGFCU Visa account. There is no limit to the
number of transfers permitted up to your approved
credit limit.
• You understand the balance transfer request we
approve for you may not ultimately pay your total
balance due with the other creditor, which may
result in outstanding charges imposed by the other
creditor. It is your responsibility to make timely
payments to your other creditor. You should continue
to make payments to these other credit card or loan
issuers until the balance transfer is reflected on your
account with us as a payment made by us to your
creditor. All balance transfers are paid by us directly
to the other creditor.

• Balances transferred will not receive a balance
transfer cash rebate or reward points.

• You must pay in full the entire balance (including
balance transfers and new purchases) by the end
of each payment cycle to avoid accruing interest on
purchases.
• Each balance transfer will reduce your available
credit. We will process the requested balance
transfers in the order you submit them to us. Should
there be an insufficient credit limit on your account
with us, you understand we will pay off the balances
of other creditors only up to the amount of the
available credit limit you have with us, which could
result in only a partial payment of the remaining
account balances with the other creditor.
• The total amount(s) of your request cannot exceed
your available credit with us. Should the request
exceed the available credit, we will decline the
request and you will have the option to apply for
a credit limit increase. APGFCU reserves the right
to refuse to honor any request for a credit limit
increase. You should not transfer from another
creditor the amount of any disputed purchases or
other charges. If you do, you may lose your right to
dispute the charges with that other creditor.
• This offer cannot be combined with any other
balance transfer offers. We will not process any
balance transfer requests that are from any other
account or loan issued by APGFCU.
VD-VIS-DIS-031721

Page 2 of 2

